                                            NATIONAL SCIENCE FOUNDATION
                                            OFFICE OF INSPECTOR GENERAL
                                              OFFICE OF INVESTIGATIONS

                                       CLOSEOUT MEMORANDUM

 Case Number: A1006004 7                                                           Page 1 of 1


          During a proactive review, we discovered that a small company's NSF proposal
          contained plagiarized text and a figure. During our Inquiry, we reviewed that
          initial proposal as well as two of the PI's other NSF proposals and found additional
          copied text and figures, all without appropriate attribution. In the PI's response to
          our query, he described his reliance on a variety of undocumented sources that we
          consider among the sloppiest citation practices we have encountered. We
          recommended NSF take strong action to protect itself and its community.
          Accordingly, NSF made a finding and took several actions, including a 1-year
          debarment, in response. Therefore, this case is closed. Our report, NSF's decision,
          and this Closeout Memorandum constitute the documents for the case closeout.




NSF OIG Form 2 (11 /02)
                                NATIONAL SCIENCE FOUNDATION
                                     4201 WILSON BOULEVARD
                                    ARLINGTON, VIRGINIA 22230




                                      JUL /-6 2012

   OFFICE OF THE
  DEPUTY DIRECTOR




VIA CERTIFIED MAIL/RETURN RECEIPT REQUESTED

Ronald Kubacki
President
[redacted]




       Re: Notice of Debarment


Dear Dr. Kubacki:

On April27, 2012, the National Science Foundation ("NSF") issued to you a Notice of Proposed
Debarment ("Notice''), in which NSF proposed to debar you from directly or indirectly obtaining
the benefits of Federal grants for a period of one year. As reflected in the Notice, NSF proposed
your debarment because you submitted three proposals to NSF containing plagiarized material,
and because you engaged in seriously deficient research practices. In the Notice, NSF provided
you with an opportunity to respond to the proposed debannent.

Over thirty days have elapsed and NSF has not received a response. Accordingly, you are
debarred un61 April 26, 2013. Debarment precludes you from receiving Federal financial and
non-financial assistance and benefits under non-procurement Federal programs and activities
unless an agency head or authorized designee makes a determination to grant an exception in
accordance with 2 CFR 180.13 5 _ Non-procurement transactions include grants, cooperative
agreements, scholarships, fellowships, contracts of assistance, loans, loan guarantees, subsidies,
insurance, payments for specified use, and donation agreements.

In addition, you are prohibited from receiving Federal contracts or approved subcontracts under
the Federal Acquisition Regulations at 48 CFR Subpart 9.4 for the period of this debarment. 2
CFR 180.925. During the debarment period, you may not have supervisory responsibility,
primary management, substantive control over, or critical influence on, a grant, contract, or
cooperative agreement with any agency of the Executive Branch of the Federal Government.
                                                                                         - 2 -
Should you have any questions regarding the foregoing, please contact [redacted] , Assistant
General Counsel, at (703) 292-8060.




                                                   Sincerely,


                                                    C~&.~~
                                                   Cora B. Marrett
                                                   Deputy Director
. ('                                   NATIONAL SCIENCE FOUNDATION
                                             4201 WILSON BOULEVARD
                                            ARLINGTON, VIRGINIA 22230




            OFFICE OF THE
              DIRECTOR                            APR 2 7 2012




       CERTIFIED MAIL --RETURN RECEIPT REQUESTED

       Ronald Kubacki
       President
       [redacted]




              Re: Notice of Proposed Debarment and Notice of Research Misconduct Determination

       Dear Dr. Kubacki:

       From [redacted]           , you submitted three SBIR proposals to the National Science
       Foundation ("NSF" or the "Foundation") entitled, [redacted]
                                                     ,""[redacted]                                   "
       and [redacted]                                                  ." As documented in the
       attached investigative report prepared by NSF's Office of Inspector General ("OIG"), these
       proposals contained plagiarized material. Moreover, the OIG's report documents that you have
       no viable methodology for obtaining and maintaining reference materials, resulting in an inability
       on your part to determine the source of much of the material included in proposals that you
       submit.

       In light of your misconduct, this letter serves as formal notice that NSF is proposing to debar you
       from directly or indirectly obtaining the benefits of Federal grants for one year. During your
       period of debarment, you will be precluded from receiving Federal financial and non-financial
       assistance and benefits under non-procurement Federal programs and activities. In addition, you
       will be prohibited from receiving any Federal contracts or approved subcontracts under the
       Federal Acquisition Regulations ("FAR"). Lastly, during your debarment period, you will be
       barred from having supervisory responsibility, primary management, substantive control over, or
       critical influence on, a grant, contract, or cooperative agreement with any agency of the
       Executive Branch of the Federal Government.

       In addition to proposing your debarment, I am taking other administrative actions against you in
       accordance with NSF's research misconduct regulations. These actions are detailed below.
      .<·:·




                                                                                                             Page2
               Research Misconduct and Sanctions other than Debarment

               Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification, or
               plagiarism in proposing or performing research funded by NSF ... " 45 CFR § 689.l(a). NSF
               defines "plagiarism'' as "the appropriation of another person's ideas, processes, results or words
               without giving appropriate credit." 45 CFR § 689.l(a)(3). A finding of research misconduct
               requires that:

                       (1) There be a significant departure from accepted practices of the relevant research
                           community; and
                       (2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
                       (3) The allegation be proven by a preponderance of evidence.

               45 CFR § 689.2(c).

               Your proposals contained verbatim and paraphrased text from numerous source documents. By
               submitting proposals to NSF that copy the ideas or words of another without adequate
               attribution, as described in the OIG investigative report, you misrepresented someone else's work
               as your own. In addition, you failed to properly acknowledge or credit the author of the source
               documents in your proposals. Your conduct unquestionably constitutes plagiarism. I therefore
               conclude that your actions meet the applicable definition of"research misconduct" set forth in
               NSF's regulations.

               Pursuant to NSF's regulations, the Foundation must also determine whether to make afinding of
               misconduct based on a preponderance of the evidence. 45 CFR § 689.2(c). After reviewing the
               OIG's investigative report, NSF has determined that, based on a preponderance of the evidence,
               your plagiarism was committed knowingly and constituted a significant departure from accepted
               practices of the relevant research community. I am, therefore, issuing a finding of research
               misconduct against you.

                NSF's regulations establish three categories of actions (Group I, II, and III) that can be taken in
                response to a finding of misconduct. 45 CFR §689.3(a). Group I actions include issuing a letter
                of reprimand; conditioning awards on prior approval of particular activities from NSF; requiring
                that an institution or individual obtain special prior approval of particular activities from NSF;
                and requiring that an institutional representative certifY as to the accuracy of reports or
                certifications of compliance with particular requirements. 45 CFR §689.3(a)(l ). Group II
                actions include award suspension or restrictions on designated activities or expenditures;
              · requiring special reviews of requests for funding; and requiring correction to the research record.
                45 CFR §689.3(a)(2). Group III actions include suspension or termination of awards;
                prohibitions on participation as NSF reviewers, advisors or consultants; and debarment or
                suspension from participation in NSF programs. 45 CFR § 689.3(a)(3) .




...
                                                                                             Page 3
In determining the severity of the sanction to impose for research misconduct, I have considered
the seriousness of the misconduct; our determination that it was committed knoWingly; the fact
that it was part of a pattern of plagiarism; as well as your exceedingly deficient research
practices. I have also considered other relevant circumstances. 45 CFR § 689.3(b).


I, therefore, take the following actions:

   •   From the end of your debarment period through April20, 2016, you are required to
       submit certifications that any proposals or reports you submit to NSF do not contain
       plagiarized, falsified, or fabricated material.

   •   From the date of this letter through April20, 2015, you are prohibited from serving as an
       NSF reviewer, advisor, or consultant; and

   •   You are required to complete a comprehensive, instructor-led ethics training course on
       plagiarism and citation practices no later than April20, 2013. You must certify in writing
       to the OIG that such training has been completed.

                                                          -
All certifications should be submitted in writing to the Office of Inspector General, Associate
Inspector General for Investigations, 4201 Wilson Boulevard, Arlington, Virginia 22230.


Debarment

Regulatory Basis for Debarment

Pursuant to 2 CFR 180.800, debarment may be imposed for:

       (b)     Violation of.the terms of a public agreement or transaction so serous as to affect
               the integrity of an agency program, such as -

               (1)     A willful failure to perform in accordance with the terms of one or more
                       public agreements or transactions; or


               (3)     A willful violation of a statutory or regulatory provision or requirement
                       applicable to a public agreement or transaction.

In any debarment action, the government must establish the cause for debarment by a
preponderance of the evidence. 2 CFR 180.850. In this case, you knowingly plagiarized
material in three grant proposals submitted to the Foundation, and you have maintained
exceedingly sloppy and deficient research practices at your Company. Thus, your action supports
                                               .<->      ·=··




                                                                                               Page4
    a cause for debarment llilder 2 CFR 180.800(b).


    Length of Debarment

    Debarment must be for a period commensurate with the seriousness of the causes upon which an
    individual's debarment is based. 2 CFR 180.865. Generally, a period of debarment should not
    exceed three years but, where circumstances warrant, a longer period may be imposed. 2 CFR
    180.865. Having considered the seriousness of your actions, as well as the relevant aggravating
    and mitigating factors set forth in 2 CFR 180.860, we are proposing your debarment until April
    20,2013.


    Appeal Procedures for Finding of Research Misconduct and Procedures Governing
    Proposed Debarment

                                                                                                         i
    Appeal Procedures for Finding of Research Misconduct                                                 <




    Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal of this
    fmding, in writing, to the Director of the Foundation. 45 CFR 689.10(a). Any appeal should be
    addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard, Arlington,
    Virginia 22230. If we do not receive your appeal within the 30-day period, the decision on the
    finding of research misconduct will become final. For your information, we are attaching a copy
    of the applicable regulations.


    Procedures Governing Proposed Debarment

    The provisions of2 CFR Sections 180.800 through 180.885 govern debarment procedures and
    decision-making. Under our regulations, you have 30 days after receipt of this notice to submit,
                                      a
    in person or in writing, or through representative, information and argument in opposition to
    this debarment. 2 CFR 180.820. Comments submitted within the 30-day period will receive full
    consideration and may lead to a revision of the recommended disposition. IfNSF does not
    receive a response to this notice within the 30-day period, this debarment will become fmal.

    Any response should be addressed to Lawrence Rudolph, General Counsel, National Science
    Foundation, Office of the General Counsel, 4201 Wilson Boulevard, Room 1265, Arlington,
    Virginia 22230. For your information, we are attaching a copy of the Foundation's regulations
    on non-procurement debarment and FAR Subpart 9.4.




A
                                ---I




                                                                                           Page 5
Should you have any questions about the foregoing, please contact [redacted] , Assistant
General Counsel, at (703) 292-5054.



                                                   Sincerely,



                                                   Wanda Ward
                                                   Senior Advisor to the Director



Enclosures:
Investigative Report
Nonprocurement Debarment Regulations
FAR Regulations
45 CFR Part 689
       National Science Foundation
        Office of Inspector General




                     Confidential
                Report of Investigation
               Case Number A10060047

                      16 December 2011

      This Confidential Report of Investigation is provided to you
                         FOR OFFICIAL USE ONLY.
It contains protected personal information, the unauthorized disclosure of which
may result in personal criminal liability under the Privacy Act, 5 U.S.C. § 552a.
This report may be further disclosed within NSF only to individuals who must
have knowledge of its contents to facilitate NSF's assessment and resolution of
this matter. This report may be disclosed outside NSF only under the Freedom of
Information and Privacy Acts, 5 U.S.C. §§ 552 & 552a. Please take appropriate
precautions handling this confidential report of investigation.

                                                                 NSF OI G Form 22b (12/
CONFIDENTIAL




                            Executive Summary

Allegation       Plagiarism.
OIG Inquiry      Three NSF proposals contained text copied from multiple
                 sources without proper citation, as well as two copied figures.
                 The Subject's explanation did not dispel the allegation. We
                 conducted the investigation because the Subject works at a
                 small company without the resources to complete an
                 independent investigation.
OIG's
Investigation    We concluded the Subject committed research misconduct.
                 The Act: The Subject plagiarized approximately 255 lines of text
                 and 2 figures from 21 source documents.
                 Intent: We concluded the Subject acted knowingly.
                 Standard of Proof: We concluded a preponderance of the
                 evidence standard supported our finding that the Subject
                 knowingly plagiarized the text.
                 Significant Departure: The Subject's copying of text and figures
                 and his seriously deficient research practices represent a
                 significant departure from accepted practices. His research
                 practices are so sloppy that it is virtually inevitable that the
                 Subject plagiarizes.
                 Pattern: The Subject's actions of copying text and figures into
                 three proposals exhibit a pattern of plagiarism. We identified
                 an additional 37.5 lines of copied text in a fourth proposal
                 submitted by the Subject.
OIG
Recommendations
              Send a letter of reprimand to the Subject informing him that
              NSF has made a finding of research misconduct.
                 Debar the Subject for 1 year.
                 Require the Subject to certify that proposals he submits to NSF,
                 for 3 years after his debarment ends, contain no plagiarized,
                 falsified, or fabricated material.
                 Require the Subject to complete a comprehensive responsible
                 conduct of research training program within 1 year of NSF's
                 finding.

                 Prohibit the Subject from serving as a reviewer, advisor, or
                 consultant on an NSF proposal for 3 years.


                                       2
CONFIDENTIAL




                                      OIG's Inquiry
       We reviewed an allegation that three of the Subject's! NSF proposals,
Proposal 1 (Tab 1), 2 Proposal 2 (Tab 2),3 and Proposal 3 (Tab 3),4 contained
plagiarized material. Our review identified approximately 255 lines5 of copied
verbatim text and 2 copied figures6 from 21 source documents (Tab 4). 7 The Subject
failed to reference the source documents in conjunction with the copied text. None
of the copied text was offset or distinguished in any way to enable a reader to
differentiate the Subject's own text from the copied text. Moreover, Proposals 1-3
also included the same embedded citations from the original source documents. In
addition to the copied text, there was also 1 copied figure each in Proposals 1 and 2.
       We wrote to the Subject regarding the copied text (Tab 5). The Subject,
despite being both the PI and Authorized Organizational Representative, did not
take responsibility for the copied text, instead responding (Tab 6) that a team of
unidentified individuals at the CompanyB prepare proposals. He said that "most
individuals in our business working on preparing a proposal have never been
associated with preparing an original work for publication in the academic sense."9
Irrespective of his staffs lack of knowledge of the community's scholarly standards,
the Subject said there is no review process of the proposal to ensure references were
present and correct. The Subject stated that because so many people 10 contributed
to the preparation of the proposals, "it is difficult or impossible for the individual
assigned to prepare the reference list to know if there are references missing or
misallocated." 11
      The Subject also explained that his company has "over 30 years of on-going
conversations with customers, vendors and peers in this field," 12 and that
information informally provided to the Company is without citation and is
incorporated into company documents over time. Indeed, the Subject marked some


    1 Dr. Ronald Kubacki is President olfredactedl          . (the Company).
    2 [redactedl                                                                   The proposal was
submitted [redacted] with the Subject as the sole PI; the Subiect also signed as the AOR. The
proposal was awarded $99,920 from fredactedl                                 .
    3 f redacted]                                                    The proposal was submitted ''"d•c<•dl
          with the Subject as the sole PI; the Subject was also the AOR. The proposal was declined.
    4 [redacted]
                The proposal was submitted [redacted] with the Subject as the sole PI; the Subject
was also the AOR. The proposal was awarded $99,087 from [redacted]                           .
    s Proposal 1 contained approximately 64 lines, Proposal 2 approximately 125 lines, and Proposal
3 approximately 66 lines.
    6 See Proposal!, D3 and Proposal2, 03.
    7 The 21 source documents were 8 published papers and 13 documents on the web. See Tab 4 for

details.
    s [redacted]
    9 Tab 6, p.l.
    1o The Company has three employees.
    u Tab 6, p.3.
    12 Tab 6, p.2.




                                                    3
CONFIDENTIAL




of the copied text as proprietary to the Company, even though it was copied from
publically available documents. The Subject asserted, "I would not be able to track
over this time frame the source of all the information we have collected." 13 The
Subject noted that some of the text we identified was "incorporated without
reference [and] was supplied by an author that we talked to on the phone," 14
although the Subject did not identify either the text, the proposal, or this author in
his response to our inquiry letter. Similarly, the Subject said some text was based
on uncited information provided by an unnamed university, but the Subject did not
specify which proposal or university, or individual provided this materia l. The
Subject later pointed out "several technical descriptions of processes are so common
as to be generic," 15 but did not provide any documents showing the commonality or
technical constraints of his descriptions.
     The Subject was unaware of many of the sources of the copied text. As an
example of where he learns of material to include in his proposals, but remaining
unaware of the source of that material, he said:
          Other information is often acquired by speaking to presenters at
          technical conferences and supplied in follow up discussions that are
          often accompanied by publications supplied to us by the original
          authors. This material often finds its way to internal documents
          without citation.16
The Subject concluded his response by stating, "There was no intentional attempt to
use any work without proper reference to the original source by myself or anyone
involved in proposal preparation." 17
       We found the Subject's explanation inadequate to dispel the allegation and
determined there was sufficient substance to proceed to an investigation. Because
the Company had only three employees at the time of the Company's most recent
proposal submission, 18 it is unlikely a sufficient number of employees could be
identified without conflict of interests with the Subject, who wa s President of the
Company. Therefore, we conducted the investigation.19


                                      OIG's Investigation

      We wrote to the Subject a second time (Tab 7) seeking clarification of his
response to our inquiry letter. Upon receipt of this letter, the Subject retained an


   13   Id.
   14   Id .
   15   Tab 6, p.4.
   16   Id.
   17   Tab 6, p .4.
   1s We sear ch ed the number of e mployees in NSF proposal   rredacted]
                        The proposal was s ubmitted   [redacted]   a nd was declined funding .
   19   45 C.F.R. § 689.5(f) .


                                                  4
CONFIDENTiAL




Attorney 20 to assist him in addressing our questions. Specifically, we asked the
Subject to: identify who is responsible for the copied text in the proposals and why
these authors were not given appropriate credit consistent with NSF policy; and to
generally identify the sources of information he mentioned in his response.
       The Subject responded (Tabs 8 and 9) that "I am ultimately responsible for
the full proposals that were submitted and I take full responsibility for them."21
The Subject identified two other individuals22 as having contributed to the
proposals, but said he was unaware of NSF's requirement that each author needed
to be identified. With regard to the individual the Subject collaborated with over
the phone, the Subject answered, "I had a brief call with a professor at Columbia
but I cannot access any records of the individual's name." 23 The Subject explained
that text from one of the professor's papers was incorporated into an internal
document that did not cite the original source, but the Subject still did not specify
which proposal contained this information, or where the text was located.
       With regard to information obtained from a collaborator, the Subject
identified the individual, 24 but did not identify the proposal in which this text
appeared. Concerning the technical constraints of the Subject's text, the Subject
provided text from two source documents, but did not identify which proposals this
information corresponded to. Upon analysis, we concluded none of the text provided
by the Subject was found in any of the three proposals. Finally, the Subject
explained that Company personnel attended meetings and conferences and took
notes at these events, sometimes in electronic form. This material is sometimes
incorporated into internal documents without proper citation. We determined it
was highly improbable that a meeting speaker would speak the same words,
verbatim, as in his or her publication (which is where we found the plagiarized
text), and that a Company employee could remember that speaker's text verbatim
without remembering the speaker's name.
          The Subject further stated:
          Based on both [the Company's] submissions and my understanding
          from collaboration in others' submissions, it is a common practice to
          include others' work as background information without including
          reference notations, so long as the company in no way takes credit for
          the work. 25
The Subject never acknowledged that by failing to give appropriate credit to the
source authors quoted in the proposals, the Subject was claiming others' work as his
own. His explanations again did not dispel the allegations.


   20   [redacted]
   21   Tab 8, p . l.
   22   [redacted]
   23   Tab 8, p.2.
   24   [redacted]
   25   Tab 8, p . l.


                                            5
CONF IDENTIAL




       We searched a Subject's recent proposal submission, Proposal 4 (Tab 10) 26 to
establish additional evidence of a pattern of plagiarism and to see if the Subject has
changed his citation practices since this proposal was submitted after we contacted
the Subject as part of our Inquiry. We found 42 lines of text copied without
attribution from 5 source documents 27 (Tab 11) in Proposal 4. Of these 42 lines, 4.5
were also contained in Proposal 2, as source documents L and Y are identical.
Consequently, Proposal 4 revealed an additional37.5 lines of copied text.


                                       OIG's Assessment

       NSF's Research Misconduct Regulation states that a finding of misconduct
requires: (1) there be a significant departure from accepted practices of the relevant
research community; (2) the research misconduct be committed intentionally, or
knowingly, or recklessly; and (3) the allegation be proven by a preponderance of the
evidence.28
                                            Th e Act
       The Subject copied approximately 255 lines of text and two figures from 21
different source documents in his NSF proposals. The NSF Grant Proposal Guide is
clear: "NSF expects strict adherence to the rules of proper scholarship and
attribution. The responsibility for proper attribution and citation rests with
authors of a proposal; all parts of the proposal should be prepared with equal care
for this concern. '~9 Consequently, by failing to appropriately distinguish verbatim
copied text and figures from his own original text and figures, the Subject presented
the work of others as his own work and, thus, failed to give appropriate credit to the
actual authors.
                               LINES         FIGURES          EMBEDDED
                                                             REFERENCES

                Proposal1        64                 1             26
                Proposal2        125                1             10
                Proposal3        66                 0              8
            Proposal4*          38.5                0              0
                  Total        293.5                2             44



   2s   [redacted]
The proposal was submitted [redacted] with the Subject as the sole PI for the compa ny Cayenne,
Inc. The proposal was declined funding.
    27 These source documents are two papers, two preprints, and one web document. See Tab 11 for

details.
    2s 45 C.F .R. §689.2(c).
    29 NSF Grant Proposal Guide, Chapter 1, Section D.3.




                                                6
CONFIDENTIAL




      Not only did the Subject plagiarize, but his research practices raise serious
questions about all material the Subject relies upon to prepare proposals, and his
capacity to prevent future plagiarism. When we presented the Subject with the
sources from which he plagiarized, he was unable to verify to us that these were the
sources he had used to prepare the proposals. In short, he simply has no idea where
his material comes from. He accumulates text from publications, conferences, and
conversations and, once material is in his possession, treats it as belonging to his
Company. As noted above as an example of this philosophy, the Subject marked as
proprietary to the Company in Proposal 1 material plagiarized from four publicly-
available documents. 30


                                              Intent
       By the Subject's own admission, he failed to appropriately cite the text
originating in the source documents.         There were no quotation marks or
indentations to distinguish the copied text from the Subject's own text. We do not
find it feasible that the Subject could have copied this amount of unattributed text
inadvertently. Moreover, one of the Subject's copied figures 31 was identical to the
source figure, while the Subject's other copied figure3 2 was slightly modified from
the source figure, indicating he knowingly altered it for the purpose of using it in
his proposal. The Subject, by his own admission, knew that text in the proposals
was not his but still included it in his proposals without proper citation. We
therefore conclude that the Subject acted knowingly when he copied text and the
figures into his proposals.


                                    Significant Departure
       Based on the evidence and the Subject's responses, we conclude his practices
so seriously deviate from accepted scholarly standards, it is almost inevitable that
plagiarized text would appear in his documents and will continue to do so if the
Subject relies upon the same methods and materials. The Subject does not
maintain references for where he obtains text, but still includes this information in
his proposals. Moreover, internal documents and proprietary information for the
Company also contain plagiarized material because the Subject does not track and
attribute from where other authors' information is taken.
      By the preponderance of evidence standard, we conclude the Subject
knowingly copied unattributed text and figures into his proposals without
appropriately distinguishing the text and figures from his own work. In doing so,
the Subject significantly departed from the accepted practices of his research


   30 Two journal papers (sources C and E), a technical study prepared at the request of the Finish
government (E), and another company's market survey (B).
   31 See Tab 4, Source 0 , 03 compared to Figure 6 in Proposal 2.
   32 S ee Tab 4, Source D, D3 compared to the right figure on p .5 in Proposal 1.




                                                7
    CONFIDENTIAL



    community and NSF. A major scientific                   publisher in the Subject's field states,
    "Plagiarism in any form is unacceptable                 and is considered a serious breach of
    professional conduct." 33 Accordingly, we                conclude that the Subject knowingly
    plagiarized and, hence, committed research              misconduct.


                                     OIG's Recommended Disposition

          In deciding what actions are appropriate when making a finding of research
    misconduct, NSF must consider several factors. These factors include how serious
    the misconduct was; degree of intent; whether it was an isolated event or part of a
    pattern; its impact on the research record; and other relevant circumstances. 34


                                                   Seriousness
          As we noted above, we concluded the preponderance of evidence supports the
    conclusion that the Subject acted knowingly when he plagiarized material into his
    proposals. Plagiarism violates research integrity and is a significant departure
    from accepted practices in the research community. We conclude the amount of
    plagiarized material is sufficiently serious to warrant a finding of research
    misconduct.


                                                 Degree o{Intent
          As we noted above, we concluded the Subject acted knowingly, which is a
    culpable level of intent. We noted that the Subject has submitted numerous papers
    to well-known professional journals.35 All of these journals have clear policies
    concerning plagiarism, providing the subject ample opportunity to understand
    appropriate conduct. Furthermore, our review of his biosketch indicates that the
    Subject's understanding of citation practices is compatible with that of United
    States researchers.


                                                    Pattern
           During our inquiry, we examined three proposals, and we identified
    plagiarism of text in all three of these proposals, and two plagiarized figures in two
    of these proposals. In our investigation, we identified additional plagiarism in
    Proposal 4. Therefore, we conclude that the four proposals present distinct evidence
    of a pattern of plagiarism.

       33   See the "A Plagiarism FAQ" on IEEE's website . The Subiect ha s a pa per   [redacted]

       34   45 C.F .R. §689.3(b).
       35   The journals include    [redacted]

                                                        8



.
•


    CONFIDENTIAL




                                     Impact on the Research Record
          The effect on the research record as a result of the Subject's actions was
    moderate. The proposal with the largest amount of copied text, Proposal 2, was a
    confidential proposal that was declined funding, while Proposals 1 and 3 were both
    awarded, so are available to the public through a Freedom of Information Act
    request.


                                           Aggravating Factors
           The Subject's stated methodology for obtaining and maintaining reference
    materials is amongst the sloppiest we have seen in the history of this office. The
    Subject has virtually admitted that he is unable to determine the source of much of
    the plagiarized text we identified.36 We conclude that the Subject's current
    practices, coupled with the amount of plagiarism, warrants a one-year debarment
    protecting the government until the Subject can improve the process by which
    written materials are produced at the Company.


                                           Subject's Response

    The Subject did not respond to our draft Report of Investigation.


                                           Recommendations

           We recommend NSF take the following actions as a final disposition in this
    case to protect the interests of the Federal Government:
            (1) Issue a letter of reprimand informing the Subject that NSF has made a
               finding of research misconduct against him;3 7
            (2) Debar the Subject for one year. 38
            (3) Require the Subject to certify that proposals he submits to NSF, for 3
                years after the debarment ends, are either entirely his own writing or are
                properly cited;39




       36 Tab 6, pg. 2.
       37 This is a Group I action (45 C.F.R. § 689.3(a)(l)(i)).
       38 This is a Group III action (45 C.F.R. § 689.3(a)(3)(iii)).
       39 This is similar to a Group I action (45 C.F.R. § 689.3(a)(l)).



                                                        9
        CONFIDENTIAL




                 (4) Require the Subject to certify to his completion of a comprehensive
                     responsible conduct of research training program and provide
                     documentation of the program's content within 1 year ofNSF's finding.
                     The instruction should be an interactive format (e.g., an instructor-led
                     course, workshop, etc) and specifically include treatment of plagiarism
                     and citation practices;4o
                 (5) Prohibit the Subject from serving as a reviewer, advisor, or consultant on
                     an NSF proposal for 3 years. 41
        The Subject's certifications and proof of an ethics course should be sent to the
        Assistant Inspector General for Investigations (AlGI) for retention in OIG's
        confidential file on this matter.




           40   This is similar to a Group I action (45 C.F.R. § 689.3(a)(l)).
           41   This is a Group III action (45 C.F.R. § 689.3(a)(3)(ii)).


                                                              10



~
    ~
